               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       U.S. Postal Service’s Health and
               Safety Program

                       Audit Report




                                          November 14, 2011

Report Number HR-AR-12-001
                                                                   November 14, 2011

                                            U.S. Postal Service’s Health and Safety
                                                                           Program

                                                       Report Number HR-AR-12-001




IMPACT ON:                                  and be held accountable for safety and
The U.S. Postal Service’s Health and        compliance with OSHA regulations.
Safety Program and Postal Service
employees.                                  WHAT THE OIG RECOMMENDED:
                                            We recommended the vice president,
                                            Employee Resource Management,
WHY THE OIG DID THE AUDIT:                  review and revise supervisor
Our objective was to assess whether the     performance measures to place a higher
Postal Service has processes in place to    priority on safety and update the Safety
minimize health and safety hazards at       Toolkit regarding Powered Industrial
its facilities and ensure compliance with   Truck operation training. We also
Occupational Safety and Health              recommended the vice presidents, Area
Administration (OSHA) regulations.          Operations, ensure plant managers
                                            establish and implement SOPs for dock
WHAT THE OIG FOUND:                         operations and management controls
The Postal Service has processes to         regarding safety procedures.
minimize health and safety hazards and
assist with OSHA compliance. However,       WHAT MANAGEMENT SAID:
employees did not always follow these       Management generally agreed with the
processes, as we identified hazards and     findings and recommendations. Some
unsafe conditions at locations we           area vice presidents only agreed in part
visited. We also identified opportunities   with specific safety hazards identified;
to improve safety processes and             but, overall, they agreed with the
procedures. We identified the following     recommendations and have
safety hazards due to management            implemented or plan to implement
control weaknesses including: safety        corrective actions.
was not always a priority; there were
inconsistent policies and insufficient      AUDITORS’ COMMENTS:
monitoring of preventive maintenance        Management’s comments were
procedures; and there was insufficient      responsive and we believe the
oversight to ensure standard operating      corrective actions should resolve the
procedures (SOPs) were followed and         issues identified in the report.
safety hazards were abated. Postal
Service policy states managers must
demonstrate a commitment to maintain        Link to review the entire report
a safe and healthy work environment
November 14, 2011

MEMORANDUM FOR:             DEBORAH M. GIANNONI-JACKSON
                            VICE-PRESIDENT, EMPLOYEE RESOURCE
                            MANAGEMENT

                           VICE PRESIDENTS, AREA OPERATIONS

                                  E-Signed by Judith Leonhardt
                                 VERIFY authenticity with e-Sign




FROM:                       Judith Leonhardt
                            Acting Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – U.S. Postal Service’s Health and Safety
                            Program (Report Number HR-AR-12-001)

This report presents the results of our audit of the U.S. Postal Service’s health and
safety program (Project Number 11YG019HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Anthony J. Vegliante
    Corporate Audit and Response Management
U.S. Postal Service’s Health and Safety Program                                                                        HR-AR-12-001



                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Maintaining a Safe Working Environment .......................................................................... 2

   Loading Dock Safety ....................................................................................................... 2

   PIT Operation Procedures ............................................................................................... 4

   Emergency Eyewash and Shower Units ......................................................................... 4

   Other Safety Concerns .................................................................................................... 6

Opportunities to Improve Safety Procedures ..................................................................... 8

   PS Form 1767, Report of Hazard, Unsafe Condition or Practice Procedures .............. 8

   OSHA Complaints ............................................................................................................ 9

   Semiannual Inspections ................................................................................................ 10

Recommendations ............................................................................................................ 10

Management’s Comments ................................................................................................ 11

Evaluation of Management’s Comments .......................................................................... 13

Appendix A: Additional Information................................................................................... 15

   Background .................................................................................................................... 15

   Objective, Scope, and Methodology ............................................................................. 16

   Prior Audit Coverage ..................................................................................................... 18

Appendix B: Hazards Identified by Location..................................................................... 20

Appendix C: Management’s Comments ........................................................................... 21
U.S. Postal Service’s Health and Safety Program                                                       HR-AR-12-001




Introduction

This report presents the results of our audit of the U. S. Postal Service’s health and
safety program (Project Number 11YG019HR000). Our objective was to assess
whether the Postal Service has processes in place to minimize health and safety
hazards at its facilities and ensure compliance with Occupational Safety and Health
Administration (OSHA) regulations. This audit was self-initiated and addresses
operational risk (see Appendix A for additional information about this audit).

In 1998, the Postal Employees Safety Enhancement Act (PESEA) changed the status of
the Postal Service as an employer under the Occupational Safety and Health (OSH) Act
of 1970. Previously, the Postal Service, as a federal agency, was exempt from private
sector provisions of the OSH Act. 1 When PESEA became effective, the Postal Service
became fully subject to the OSH Act. This gave OSHA jurisdiction over the Postal
Service in matters relating to employee safety and health and required the Postal
Service to comply with OSHA standards and regulations. If violations occur, OSHA may
cite2 or fine the Postal Service or, in extreme cases, refer the agency for criminal
prosecution.

In recent years, OSHA has increased its inspections and citations of the Postal Service
considerably and, as a result, penalties have increased. Specifically, the total number of
proposed violations increased from 112 in fiscal year (FY) 2008 to 528 in FY 2010.
According to OSHA, 52 percent of the Postal Service’s proposed violations in FYs 2008-
2010 were for serious violations. Actual penalties the Postal Service paid increased
from $59,965 in FY 2008 to $568,486 in FY 2010.

Conclusion

The Postal Service has implemented processes to minimize health and safety hazards
at its facilities and to help ensure compliance with OSHA requirements, including
semiannual safety inspections that provide a method for identifying, tracking, and
abating hazards and unsafe conditions. They also perform program evaluations to
measure the effectiveness of safety and health programs and ensure compliance with
OSHA regulations. In addition, the employees use Postal Service (PS) Form 1767,
Report of Hazard, Unsafe Condition or Practice Procedures, to report safety hazards
they identify in the work place. However, Postal Service personnel at the locations we
visited did not consistently follow established procedures, resulting in hazardous and
unsafe working conditions. Some of the hazards we observed included unsafe practices
regarding loading dock areas, powered industrial truck (PIT) operation, eyewash and
shower units, electrical issues, unanchored lockers, and fire prevention. These
conditions occurred due to internal and management control weaknesses including:

1
  Federal agencies are covered under Section 19 of the OSH Act and Executive Order 12196, Occupational Safety
and Health Programs for Federal Employees, February 26, 1980.
2
  OSHA can issue a citation when it determines a violation has occurred. Citations can be issued with or without an
accompanying fine.
                                                          1
       This report has not yet been reviewed for release under FOIA or the Privacy
       Act. Distribution should be limited to those within the Postal Service with a
       need to know.
 U.S. Postal Service’s Health and Safety Program                                                        HR-AR-12-001



 safety not always being considered a priority, insufficient monitoring of preventive
 maintenance procedures, and insufficient oversight to ensure that standard operating
 procedures (SOPs) were followed and that safety hazards were abated. As a result,
 employees are exposed to increased risk of injury and the Postal Service could be
 subject to increased workers’ compensation costs and OSHA penalties. The Postal
 Service could also be subject to potential negative publicity that could impact its brand.
 We also identified opportunities for the Postal Service to improve safety procedures,
 such as those related to handling employee-reported hazards and semiannual
 inspections.

 Maintaining a Safe Working Environment

 At the eight judgmentally selected locations we visited during the audit, Postal Service
 officials did not consistently maintain an environment free of hazards and unsafe
 working conditions. For example, we identified safety hazards regarding loading docks;
 PIT operation; eyewash and shower units; exposed electrical wiring; extension cords
 used in lieu of permanent wiring; missing outlet covers; broken switches; cabinets,
 bookcases, and lockers not anchored; and fire extinguishers blocked by equipment. See
 Table 1 for safety issues identified by location, and also see Appendix B for additional
 information about hazards identified by location.

                                     Table 1. Safety Issues Identified
Hazard
Category

Dock Issues            No          No           No             Yes          No            No          Yes          No
Powered
Industrial Truck
                      Yes          No          Yes             Yes         Yes            No          Yes          No
Eyewash and
                      Yes         Yes          Yes             Yes          No           Yes          Yes         Yes
Shower Units
Electrical            Yes         Yes          Yes             Yes         Yes           Yes          No           No
Unanchored
                       No         Yes          Yes             No           No           Yes          No           No
Lockers

Fire Prevention       Yes         Yes          Yes             No           No           Yes          No           No


 Loading Dock Safety

 At two processing &distribution centers (P&DCs) (                             , we
 identified issues on the docks where mail was loaded and unloaded. For example:



 3
   A central mail facility that processes and dispatches part or all both incoming mail and outgoing mail for a
 designated service area. It also provides instructions on the preparation of collection mail, dispatch schedules, and
 sorting plan requirements to mailers.
 4                                                                             ®
   A highly mechanized mail processing plant that distributes Standard Mail and Package Services in piece and bulk
 form.


                                                           2
U.S. Postal Service’s Health and Safety Program                                  HR-AR-12-001



        At the            P&DC, we identified safety concerns related to truck loading
         procedures. The facility uses a red and green dock lighting system to indicate when
         it is safe for a driver to back the trailer into a bay and when it is safe for dock
         personnel to enter the trailer. Many dock lights were not working, and some were
         not illuminated. In addition, some were the wrong color (green when they should
         have been red or vice versa). We also noted that trucks were being loaded and
         unloaded regardless of the color of the light, although signs by each door stated,
         “Enter On Green Only.”. Management was unable to provide us with SOPs for
         receiving and dispatching vehicles. However, a new SOP was implemented after
         our site visit. See Figure 1 for an example of a dock light that was not working.

                         Figure 1. Inoperative Dock Lights –




                       Source: OIG


 The           P&DC was experiencing recurring accidents on the inbound and
  outbound docks and platforms. At least 10 incidents have occurred since June 2010,
  and six of those occurred after the facility implemented a revised SOP for receiving
  and dispatching vehicles in August 2010. For example:

     °     On January 21, 2011, an employee was loading a truck when the driver drove off
           with the employee still in the trailer.

     °     On April 26, 2011, an employee was injured when the driver moved the truck he
           was loading.

Headquarters’ Surface Operations issued guidelines for the receipt and dispatch of
motor vehicles to prevent accidents generally caused by the unauthorized movement of
vehicles away from the dock before completion of loading and unloading. However,
because of variations in dock operations, facility configurations, and other site-specific
issues, each facility is required to have its own SOP. Although the            P&DC
issued a SOP on August 2010, we still identified safety concerns at that location.



                                                   3
U.S. Postal Service’s Health and Safety Program                                                        HR-AR-12-001



PIT Operation Procedures

We identified safety concerns related to PIT operation and training at four of eight
locations. Specifically:

   While on-site at the           P&DC, auditors were nearly hit by a PIT. The driver
    exceeded the 5 mile per hour speed limit and did not sound the horn when passing
    pedestrians.

   At three locations (
    P&DCs), we observed PIT operators driving without wearing seat belts.

                         P&DC, six PIT operators did not receive the required triennial
    training.

   At two locations, (the                              P&DCs) supervisors responsible
    for PIT operators had not been trained in PIT operation as required. 6

Emergency Eyewash and Shower Units

Postal Service policy requires emergency eyewash and shower units to be accessible
through an unobstructed path that allows employees to reach the units within 10
seconds, that they be tested weekly, and that the location does not pose harm to the
user. 7 At seven of the eight locations we visited, we noted problems with the eyewash
or shower units (see Table 1). For example:

   The              P&DC had five eyewash/emergency shower units and one portable
    eyewash unit. All six were in locked rooms, preventing easy access. In addition, one
    of the rooms had a pole at the entrance, making it difficult to enter. 8

   The              P&DC had one permanent eyewash and shower unit and one
    portable eyewash unit. The portable eyewash unit was in a small room and buried
    under a pile of boxes. It had not been inspected since June 27, 2010, and the fluid
    had not been changed. According to the maintenance manager, the fluid should be
    changed weekly (see Figure 2).

5
  Postal Service policy as specified in the Safety Toolkit requires a minimum of 4 hours of triennial training for PIT
operators. OSHA policy states that an evaluation of each PIT operator’s performance shall be conducted every
3 years. Management stated that they follow OSHA’s policy and are going to revise Safety Toolkit policies to match
OSHA requirements.
6
  The Safety Toolkit states “installation heads responsible for supervising PIT operators must have the same level of
skill set as the PIT operator they are supervising.”
7
  Emergency Eyewash-Shower Guide V2 (from the Safety Toolkit).
8
  While on-site the safety specialist and maintenance manager agreed that these rooms should not be locked. Also,
during the exit conference at the facility, the plant manager instructed the maintenance manager to keep all six rooms
unlocked and to remove the pole. However, in subsequent correspondence from Postal Service management, they
stated that three of the rooms (the spill, oil, and battery rooms) should be locked to prevent unauthorized entry. They
also stated that the pole near the entrance of one room is there to protect employees who walk directly into a main
aisle and that the door can be opened and is not blocked. Management also acknowledged that some of the eyewash
units they have were purchased unnecessarily.


                                                          4
U.S. Postal Service’s Health and Safety Program                                          HR-AR-12-001



                    Figure 2. Blocked Eyewash Unit,                 P&DC




                    Source: OIG

   At the           P&DC, we found a broken eyewash unit and two eyewash units that
    were not inspected weekly, as required. One eyewash unit was last inspected in
    June 2010 and the other in December 2010. In addition, two showers were located
    next to a light switch, which posed the risk of electrical shock. Maintenance
    personnel installed a waterproof cover over the light switch during our visit. The
    picture on the left in Figure 3 shows the switch before it was fixed and the picture on
    the right shows the light switch after the hazard was abated.

                                                  Figure 3.
                                                          Safety Shower Near Light
                     Safety Shower Near
                                                          Switch, After the Hazard was
                     Light Switch,      P&DC
                                                          Abated




                     Source: OIG




                                                      5
U.S. Postal Service’s Health and Safety Program                                       HR-AR-12-001



    The                    P&DC had a shower directly next to a hot water heater, also
     posing the risk of electrical shock. Maintenance personnel at the facility had initiated
     plans to abate the hazard through the installation of a plastic panel to prevent water
     from hitting the hot water heater.

Other Safety Concerns

We also observed exposed electrical wiring; extension cords used in lieu of permanent
wiring; missing outlet covers; broken switches; cabinets, bookcases, and lockers not
anchored; and fire extinguishers blocked by equipment (see Figure 4).

                                                  Figure 4.

    Extension Cord Used in Lieu of Permanent Wiring,            Unanchored Locker,
                                 P&DC                                        P&DC




                 Blocked Dock Ramp,                           Blocked Fire Extinguisher,
                            P&DC                                             P&DC




                                                     6
U.S. Postal Service’s Health and Safety Program                                                      HR-AR-12-001




                  Exposed Electrical Wires,                             Extension Cord Used in Lieu of
                                                                       Permanent Wiring,




    Source: OIG

We found management control weaknesses at the locations we visited contributed to
the safety hazards identified. Specifically:

     Officials at two locations stated safety was not a priority.

     Performance measures for supervisors did not place a high priority on maintaining a
      safe and healthy work environment. 9

     Guidance regarding PIT operation safety training is inconsistent. Headquarters
      management stated that OSHA does not require PIT operation training for operators
      and supervisors. However, the Safety Toolkit identified PIT operation training
      courses as a triennial requirement. The OSHA requirement is for an evaluation of
      PIT operator performance every 3 years.

     Field management officials we interviewed:

      °   Were not aware of hazardous conditions (four locations).

      °   Did not always ensure preventive maintenance was performed on eyewash and
          shower units (two locations).

      °   Did not always ensure personnel followed policies and procedures regarding
          loading dock safety (two locations).

      °   Did not always ensure personnel followed policies and procedures regarding PIT
          operation (five locations).

9
   Supervisors have a performance measure for OSHA injury and illness rates, which accounts for 10 percent of their
corporate goal which accounts for 50 percent of the supervisor’s overall measures. As a result, the OSHA injury and
illness goal represents approximately 5 percent of the total rating.


                                                         7
U.S. Postal Service’s Health and Safety Program                                                     HR-AR-12-001



As a result, employees were exposed to increased risk of injury and the Postal Service
was exposed to potential increases in workers’ compensation costs and OSHA
penalties.

Opportunities to Improve Safety Procedures

We identified opportunities for the Postal Service to improve established safety
procedures. The Postal Service has implemented processes to minimize health and
safety hazards at its facilities and to help ensure compliance with OSHA requirements,
including semiannual safety inspections which provide a method for identifying, tracking,
and abating hazards and unsafe conditions. They also perform health and safety
program evaluations to measure the effectiveness of safety and health programs and
ensure compliance with OSHA regulations. In addition, the employees use
PS Form 1767 to report safety hazards they identify in the work place. However, we
noted the following issues at the sites visited during our audit:

PS Form 1767, Report of Hazard, Unsafe Condition or Practice Procedures
Employees use PS Form 1767 to report safety hazards they identify in the workplace.
We reviewed the Safety Toolkit database 10 for the locations included in our audit and
found that employees did not always enter a PS Form 1767 in the Safety Toolkit as
required (see Table 2).


                            Table 2 - PS Form 1767 Data by Location
                                      Total PS        Total           Total Not         Percentage Not
                                    Forms 1767      Entered in        Entered in          Entered in
 Location                            2009-2011       Toolkit           Toolkit              Toolkit

                                        122             118                4                  3%

                                        119             114                5                   4

                                        167             131               36                   22

                                        210             199               11                   5

                                        102             85                17                   17

                                        348             342                6                   2

                                        660             305              355                   54

                                        177             177                0                   0
 Totals                                 1,905          1,471             434                  23%




10
  The Safety Toolkit is a Postal Service application used to prepare and manage accident reduction and hazard
abatement plans; record and upload safety inspection findings for abatement tracking; and manage OSHA citations
and employee hazard report logs.


                                                        8
U.S. Postal Service’s Health and Safety Program                                   HR-AR-12-001



At the                            P&DCs, employees filed seven grievances because
PS Forms 1767 were not addressed or the employee never received a response from
management. At the                  P&DC, supervisors signed off on nine hazards, stating
they would be referred to maintenance but no follow up occurred. In addition, five forms
at the           P&DC were not properly completed. The supervisor did not indicate on
the forms actions taken to abate the hazards and the approving official did not certify on
the forms that the hazards were abated. Therefore, we were unable to determine
whether the alleged hazards were abated and the employee notified. We interviewed
safety specialists who stated that they did not consider entering PS Form 1767 data in
the Safety Toolkit to be a high priority. In addition, supervisors did not always follow
proper procedures for abating hazards and forwarding the completed forms to safety
specialists. If potential hazards are not promptly investigated and abated, employees
are exposed to increased risk of injury.

OSHA Complaints

We also identified instances where employee concerns resulted in OSHA complaints,
because the employee complaints were not abated. For example:

      At the           P&DC, an employee submitted a safety hazard regarding ventilation
       in the battery room on a PS Form 1767 on December 1, 2010. On December 21,
       2010, a complaint regarding the same issue was filed with OSHA, because the issue
       was not adequately addressed at the facility.

      At the             P&DC, employees submitted PS Forms 1767 in February and
       March 2010 complaining about unsafe driving practices by PIT operators.
       Management stated they took steps to abate this issue including holding safety talks
       and installing speed limiters on PIT equipment. However, on May 18, 2010, an
       OSHA complaint was filed stating that PIT operators were not following speed limits
       and were not honking their horns when required.

These conditions occurred, because according to safety officials at two of the locations
we visited, safety was not a priority. As a result, managers did not promptly investigate
alleged hazards and unsafe conditions or practices nor did they enforce safety
procedures.

Postal Service policy states that PS Form 1767 provides a channel of communication
between employees and management that promotes a prompt analysis and response
with corrective action to reports of alleged hazards, unsafe conditions, or practice. 11
According to policy, supervisors are required to:

      Promptly investigate alleged hazards and unsafe conditions or practices.
      Respond to the employee who reported the hazard.
      Resolve the hazard, unsafe condition, or practice, if possible.
      Complete a work order to have corrective action taken.
11
     Employee and Labor Relations Manual (ELM), Section 824.61, dated May 2011.



                                                        9
U.S. Postal Service’s Health and Safety Program                                                    HR-AR-12-001



    Follow up to see that the hazard, unsafe condition, or practice was corrected.
    Notify the employee of the results. 12
Semiannual Inspections

Semiannual inspections were conducted at all the sites we visited. However, we
identified safety hazards in the semiannual inspections that were listed as “abated” at
four sites (                                          P&DCs), but they were not. For
example, at the           P&DC, an inspection item was entered on March 15, 2011,
because five garage doors on the docks were not operating properly. During our site
visit on June 22, 2011, we noted that three of the same doors were inoperable.

Officials did not always list the locations and sub-locations for hazards identified in
semiannual inspections, making it difficult to identify and abate the deficiencies. In
addition, multiple hazards were grouped into one finding, making analysis of a facility’s
condition (hazard category and frequency) inaccurate.

Safety personnel perform safety and health inspections to identify specific operational,
facility, or program deficiencies that may cause accidents, injuries, and illnesses; and to
foster compliance with OSHA regulations and standards. 13 Plant safety personnel must
conduct semiannual inspections of all installations with 100 or more work years in the
regular workforce and enter their findings into the Safety Toolkit. The Employee and
Labor Relations Manual (ELM) requires procedures for correcting deficiencies to include
a process for checking whether the corrective action taken was effective. 14 The checklist
used to conduct the inspection is available in the Safety Toolkit. However, Postal
Service policy does not provide clear guidelines for reporting hazards in the semiannual
inspections. When safety procedures are not followed and identified hazards are not
appropriately abated, employees are exposed to increased risk of injury and the Postal
Service could be subjected to increased costs and negative publicity that could impact
the Postal Service brand.

Recommendations

We recommend the vice president, Employee Resource Management:

     1. Review and revise, as appropriate, supervisor performance measures to place a
        higher priority on maintaining a safe and healthy work environment; for example:
        performance measures could be linked to the number of abated and/or unabated
        safety hazards.
     2. Update policies in the Safety Toolkit regarding training requirements for Powered
        Industrial Truck operation to ensure they are consistent with Occupational Safety
        and Health Administration requirements.


12
   Handbook EL-801,Supervisor’s Safety Handbook, Section 1-5, updated with Postal Bulletin revisions through
October 23, 2008.
13
   ELM, Section 824.1.
14
   ELM, Section 824.54.


                                                       10
U.S. Postal Service’s Health and Safety Program                                HR-AR-12-001



    3. Distribute all policy updates and revisions to field managers and supervisors to
       help ensure consistent implementation of Postal Service and Occupational
       Safety and Health Administration requirements.

    We recommend the vice presidents, Area Operations implement management
    controls to ensure field management officials:

    4. Establish and implement standard operating procedures for dock operations.

    5. Perform and oversee preventive maintenance procedures for eyewash and
       shower units.

    6. Conduct required safety inspections and abate safety hazards in a timely manner
       to ensure safe and healthy working conditions for the employees.

    7. Enter Postal Service Forms 1767, Report of Hazard, Unsafe Condition or
       Practice Procedures, accurately and timely in the Safety Toolkit.

Management’s Comments

Management generally agreed with the recommendations; however, Great Lakes and
Southwest area management stated they disagreed that safety was not a priority. Great
Lakes management stated they go above and beyond to involve employees in accident
reduction efforts, inspection activities, and abatement of deficiencies, and that they are
one of only two areas to have implemented Joint Safety Taskforce committees at each
of their districts. Southwest Area management stated they have demonstrated safety as
a priority by involving more facilities than any other area in the Voluntary Protection
Program certification process. They further stated they lead the Postal Service with the
lowest OSHA II rate and Motor Vehicle Accident rate.

Employee Resource Management responded to recommendations 1, 2, and 3 as
follows: With regard to recommendation 1, management stated in FY 2012 (effective
October 1, 2011), the Program Evaluation Guide score will be a compensable indicator
on the National Performance Assessment scorecard for: district managers; Postal
Career Executive Service (PCES) Post Office managers and Executive and
Administrative Service (EAS) staff; PCES Plant managers and EAS staff; processing
and distribution centers EAS staff; and level 21 to 26 Post Office EAS staff. Regarding
recommendation 2, management stated the safety training matrix for PIT training was
updated on September 19, 2011, to remove the reference to triennial training
requirements for PIT operators; and that OSHA requires triennial performance
evaluations for PIT operators, and retraining is required only when the evaluation
reveals that the operator is not operating the PIT safely. In response to recommendation
3, management stated the Safety Resources webpage that has been used to
disseminate policy information to the field for many years has been replaced by a new
webpage, Resources for Safety and OSHA Compliance (effective September 30, 2011)
which has several features that will make policy updates and revisions more visible.


                                                  11
U.S. Postal Service’s Health and Safety Program                              HR-AR-12-001




Recommendations 4, 5, 6, and 7 were addressed to the vice presidents, Area
Operations, and they responded as follows:

Regarding recommendation 4, management generally stated they follow the guidelines
listed in the headquarters SOP for Receiving and Dispatching Vehicles, dated
November 7, 2007. In addition, Western and Pacific area management stated they will
reinforce the exiting SOP, while Capital Metro Area management stated they agreed in
part with the recommendation, and that there were no dock issues at            P&DC.
They further stated they will reissue SOPs to operational managers to ensure
compliance. Great Lakes Area management stated they met with the Leadership Team
on October 20, 2011, and gave a presentation on the types of deficiencies found in their
dock operations and again instructed them to ensure that they follow all rules and
regulations. On October 15, 2011, Northeast Area management initiated a safety talk
program that will provide refresher training to the drivers and the mail handlers on a
quarterly basis, and Southwest Area management stated no dock issues were
identified, but their continued commitment to safety will be maintained. Lastly, no
identified dock safety issues were identified in the Eastern Area, and they did not
comment on recommendation 4.

In response to recommendation 5, Western Area management stated they believed
adequate policies and tools are in place to address preventive maintenance on
eyewash and shower units. However, Western and Pacific Area management stated
they will reinforce the importance of existing preventive maintenance procedures for
eyewash and safety shower units, during their scheduled maintenance teleconferences.
Capital Metro Area management agreed in part with the recommendation, stating there
were no specific references to the          P&DC in the report, but Appendix B indicated
the only eyewash and shower unit was locked in the Hazmat room. As a result of the
U.S. Postal Service Office of Inspector General (OIG) recommendations, Capital Metro
Area management installed six additional eyewash units on June 1, 2011.The Great
Lakes and Southwest Area management stated they abated eyewash and safety
shower hazard during the OIG site visits. Northeast Area management stated the report
identifies eyewash and shower units as a safety hazard but does not specify what the
concern is. They further stated the Hazmat area eyewash station is kept locked to keep
unauthorized personnel out, and it is available to those who work in that room; and that
there are other eyewash units on the workroom floor that are not in a locked room, that
are accessible to employees. There were no issues specific to the Eastern Area
regarding eyewash units; therefore, they did not comment on this recommendation.

Regarding recommendation 6, Western Area management stated safety personnel will
conduct quarterly reviews on safety and health inspection issues. The findings will be
discussed and reviewed during safety teleconferences with district safety managers.
Pacific Area management stated they will reinforce the importance of existing
preventative maintenance procedures for eyewash and shower units during a scheduled
maintenance teleconference. Great Lakes management provided supplemental
correspondence stating they instructed the safety analyst to review the unabated items



                                                  12
U.S. Postal Service’s Health and Safety Program                                  HR-AR-12-001



in the Safety Toolkit on a biweekly basis and contact installation heads and district
safety managers to get these items abated. Northeast Area management stated the
           P&DC FY 2011 Safety Inspection has been completed and entered into the
Safety Toolkit within the required time frame. An item that was listed as being abated
but was not abated was the emergency action plan and will be updated and posted no
later than October 31, 2011; Southwest Area management stated the districts will be
reminded of this requirement through the safety program policy letter that will be issued
annually by the area leadership. Capital Metro Area management stated inspections
and abatements are tracked by the area and district safety office weekly and all Capital
Metro Area inspections were completed on September 30, 2011. The Eastern Area
stated the safety hazards identified by the OIG were abated immediately. In addition,
the facility manager, in conjunction with the facility safety specialist and district safety
department, will conduct required safety and health inspections and abate safety
hazards in a timely manner to ensure safe and healthy working conditions for
employees.

Lastly, in response to recommendation 7, Western Area management stated the Safety
Office will conduct quarterly reviews on PS Form 1767, using the Program Evaluation
Guide 2.0 Scores by Facility report. Capital Metro Area management stated they
implemented a process to address the PS Form 1767 complaints in October 2011; and
Pacific Area management will reinforce with each plant supervisor the procedures for
promptly abating PS Forms 1767 by December 31, 2011. Great Lakes management
stated that on October 6, 2011, the safety manager instructed her staff to check the PS
Form 1767 file and enter the information on a frequent basis, at least once every 7
days. Eastern Area management stated that all PS Form 1767s submitted by
employees, were entered in the Safety Toolkit; and Southwest Area management stated
the area safety manager will send a letter to all districts to ensure compliance with
policies related to hazards reported on PS Forms 1767 by October 2012. The Northeast
Area management stated, beginning in September 2011, all PS Forms 1767 will be
reviewed and discussed at the turnover meeting and will be given to the safety
specialist each day to input into the Safety Toolkit.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective should resolve the issues identified in the report. With regard to
management’s disagreement with the statement in the report that safety was not always
a priority, we acknowledge that some facilities included in our audit implemented safety
processes and procedures. However, when we interviewed individuals responsible for
safety, some stated safety related duties were not always a priority as one of the
reasons established processes and procedures were not followed.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when



                                                  13
U.S. Postal Service’s Health and Safety Program                             HR-AR-12-001



corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                  14
U.S. Postal Service’s Health and Safety Program                                                           HR-AR-12-001




                                  Appendix A: Additional Information

Background

The OSH Act of 1970, administered by OSHA, established, for the first time, a
nationwide federal program to protect workers from
job-related death, injury, and illness. Under the OSH Act, employers are responsible for
providing safe and healthy workplaces for their employees. OSHA's role is to ensure
these conditions by setting and enforcing standards and providing training, education,
and assistance. Covered employers comply with the safety and health standards and
regulations and have a general duty to provide their employees with a workplace free
from recognized serious hazards. OSHA provides enforcement through workplace
inspections and investigations, which can result in penalties to employers.

Prior to 1998, when the PESEA was passed, the Postal Service was exempt from the
private sector provisions of the OSH Act. OSHA now has jurisdiction over the Postal
Service in matters relating to employee safety and health, and the Postal Service must
comply with OSHA standards and regulations. Otherwise, like the private sector, the
Postal Service can be cited, fined, and, in extreme cases, referred for criminal
prosecution by OSHA if it is found to be in violation of the OSH Act. 15

Over the last 3 fiscal years, OSHA’s inspections and citations to the Postal Service have
increased considerably. The total number of proposed violations increased from 112 in
FY 2008 to 528 in FY 2010 (see Table 3 for OSHA enforcement statistics for FYs 2008
to 2010). 16

Table 3. OSHA Enforcement Statistics 17
                             Inspections                                                                 18
                                                                               Proposed Violations
                                 with
Fiscal       Total            Proposed           Proposed
 Year     Inspections          Citations         Penalties         Other       Repeat      Serious      Willful    Total
2008           176                 59             $119,360           51            2          59              0     112
2009           185                 81              537,011           81           16         108              0     205
2010           304                165            6,615,708          143           33         272          80        528
Total          665                305           $7,272,079          275           51         439          80        845



15
   Fines for willful or repeated violations can range from $5,000 to $70,000 for each violation and each serious
violation may result in a penalty up to $7,000.
16
   Data obtained from Compliance with Occupational Safety and Health Administration Recordkeeping Requirements
(Report Number HR-AR-11-004 dated May 27, 2011).
17
   The Postal Service may contest the citation, proposed penalty, and/or abatement date. These numbers do not
reflect contested items that have resulted in reductions in the violation’s severity, number, or penalty amount.
18
   Serious violations are those where a substantial probability that death or serious physical harm could result. Willful
violations are those in which an employer intentionally allows a violation to continue to exist. Other violations are for
hazardous conditions that cannot reasonably be predicted to cause death or serious physical harm to exposed
employees but do have a direct and immediate relationship to their safety and health.


                                                           15
U.S. Postal Service’s Health and Safety Program                                   HR-AR-12-001




Objective, Scope, and Methodology

Our objective was to assess whether the Postal Service has processes in place to
minimize health and safety hazards at its facilities and ensure compliance with OSHA
regulations. To accomplish our objective, we:

    Randomly selected 40 P&DCs from a universe of 260 and 10 NDCs from a universe
     of 21. We then judgmentally selected six P&DCs and two NDCs from our random
     sample for review. We selected the eight facilities, because of the high number of
     1,767 complaints in the Safety Toolkit, unabated complaints, unabated semiannual
     inspections items, and the number of violations identified in recent inspections.

    For each facility included in our audit, we interviewed Postal Service officials, toured
     the facility, and validated information we obtained from the Safety Toolkit (see
     Table 4 for the facilities we visited).

    Table 4. Facilities Visited
     Area               District                  Name                  City, State




    Compared hard copies of PS Forms 1767 maintained at the facilities to the
     information documented in the Hazard Log in the Safety Toolkit to determine
     whether officials recorded all hazards reported by employees.

    Selected a judgmental sample of reported hazards for FY 2011 from the Hazard Log
     and the most recent semiannual and annual inspection reports in the Safety Toolkit.
     We used those documents when touring the facilities to verify whether management
     abated the reported hazards.

    We interviewed employees, including union officials, to determine whether they had
     any health and safety concerns that had not been addressed. In addition, we
     interviewed officials to determine what processes had been implemented to reduce
     health and safety risks and to ensure compliance with OSHA regulations.

    We reviewed correspondence pertaining to OSHA violations and complaints to
     determine whether they were similar to issues employees previously reported using


                                                  16
U.S. Postal Service’s Health and Safety Program                                                       HR-AR-12-001



     the PS Form 1767 process. Also, we reviewed grievances pertaining to health and
     safety and determined whether management resolved the issues.

    We toured the facilities and documented general safety concerns. In some
     instances, we photographed examples of safety hazards.

 We reviewed Handbook EL-80, Supervisor’s Safety Handbook and the ELM to
  determine the Postal Service’s responsibilities related to OSHA regulations.

We conducted this performance audit from February through November 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on September 1, 2011, and included
their comments where appropriate.

We tested the reliability of the data obtained from the Safety Toolkit 19 through interviews
with Postal Service officials knowledgeable about the data. We also compared
hard copy OSHA correspondence and internally generated health and safety
documentation (such as PS Form 1767) to information in the Safety Toolkit. As a result,
we determined the data were sufficiently reliable for the purposes of our audit.




19
  The Safety Toolkit is an interactive management tool Postal Service officials use to manage the health and safety
program.


                                                         17
     U.S. Postal Service’s Health and Safety Program                                        HR-AR-12-001



     Prior Audit Coverage

     The OIG identified four audits related to our objective that were issued within the last
     several years:

                                                Final
                           Report              Report        Monetary
  Report Title             Number               Date          Impact          Report Results
Compliance with          HR-AR-11-004         5/27/2011        None     The Postal Service did not
Occupational Safety                                                     always record and report
and Health                                                              injuries and illnesses in
Administration                                                          accordance with OSHA
Recordkeeping                                                           requirements. Inaccurate and
Requirements                                                            incomplete OSHA
                                                                        recordkeeping could impact
                                                                        management’s ability to identify
                                                                        and correct hazardous
                                                                        conditions and mitigate future
                                                                        risks and result in OSHA
                                                                        citations with significant
                                                                        penalties to the Postal Service.
                                                                        Management generally agreed
                                                                        with our findings and
                                                                        recommendations but stated
                                                                        they believe the Postal Service
                                                                        has adequate policies and
                                                                        procedures for reporting OSHA
                                                                        injuries. In addition,
                                                                        management indicated they
                                                                        were already taking proactive
                                                                        measures to improve OSHA
                                                                        recordkeeping. The targeted
                                                                        implementation date is
                                                                        9/30/2011.
Powered Industrial       NO-AR-09-010         9/22/2009        None     Internal controls over vehicle
Vehicle Management                                                      safety, security, and inventory
System at the                                                           were not in place because
Washington Network                                                      management did not implement
Distribution Center                                                     compensating internal controls
                                                                        when the Powered Industrial
                                                                        Vehicle Management System
                                                                        was no longer functioning. For
                                                                        example, equipment operators
                                                                        did not complete OSHA safety
                                                                        checklists as required, resulting
                                                                        in management not identifying
                                                                        unsafe vehicles. Management
                                                                        agreed with our
                                                                        recommendation to provide
                                                                        closer supervision and improve
                                                                        internal controls over powered
                                                                        industrial vehicles.




                                                        18
     U.S. Postal Service’s Health and Safety Program                                      HR-AR-12-001



Workplace Safety         HM-AR-09-001         02/27/2009    $63,200   The report found four mail
and Injury Reduction                                                  processing facilities in the
Goals in Selected                                                     Capital Metro Area achieved
Capitol Metro Area                                                    some of their FYs 2007 and
Facilities                                                            2008 injury reduction goals;
                                                                      however, the achievements for
                                                                      three facilities were overstated,
                                                                      while the achievements for one
                                                                      facility were understated. We
                                                                      made recommendations
                                                                      regarding overstated injury
                                                                      reduction goals and the
                                                                      correction of safety deficiencies.
                                                                      Management agreed to all 10
                                                                      recommendations but disagreed
                                                                      with several of the findings in
                                                                      the report, as well as the
                                                                      monetary impact of $63,200.
Postal Service’s         HM-AR-07-002         5/16/2007      None     The Postal Service exceeded its
Workplace Safety                                                      OSHA illness and injury
and Workplace-                                                        reduction goals for FYs 2005
Related Injury                                                        and 2006 and there may have
Reduction Goals and                                                   been a corresponding reduction
Progress                                                              in the Postal Service’s total
                                                                      accident and OSHA illness and
                                                                      injury costs. However, the
                                                                      Postal Service did not capture
                                                                      individual accident costs;
                                                                      therefore, we could not
                                                                      determine the cost savings in
                                                                      key categories from one year to
                                                                      the next. Management agreed
                                                                      with our recommendation to
                                                                      closely monitor conversion to
                                                                      the Systems Applications and
                                                                      Processes Environment Health
                                                                      and Safety module and to
                                                                      ensure the upgraded system
                                                                      captures key costs by facility,
                                                                      district/performance cluster, and
                                                                      area.




                                                       19
U.S. Postal Service’s Health and Safety Program                                                                                                                HR-AR-12-001




                                                              Appendix B: Hazards Identified by Location
  Hazard
 Category
Dock Issues                                                                            No SOP, dock lights not                                         Numerous
                                                                                       working.                                                        incidents in
                                                                                                                                                       dock area
                                                                                                                                                       resulting in
                                                                                                                                                       several
                                                                                                                                                       accidents
Powered        PIT driver                                       PIT not properly       PIT operator not           PIT operator                         Six PIT
Industrial     almost crashed                                   maintained.            wearing seat belt.         not wearing                          operators did
Trucks         into OIG                                         Operator not           Supervisors not trained.   seat belt.                           not receive
               auditors,                                        wearing seat belt.                                                                     triennial
               because he was                                   Supervisors not                                                                        training.
               driving too fast                                 trained.
               and did not blow
               his horn.
Eyewash        One eyewash        Rewrap room only had          Eyewash and            One eyewash and                              Portable           One eyewash      Only
and Shower     and shower unit    one 16 oz. eyewash            shower unit located    shower unit not                              eyewash in         and shower       eyewash
Units          had a pole         bottle. Facility has an       too close to a hot     inspected as required.                       Hazmat room        unit was not     and shower
               blocking entry     eyewash unit for this         water heater.          Two eyewash and                              was blocked by     easily           unit on plant
               into the room.     area but maintenance                                 shower units located                         boxes, and water   accessible to    floor is
               Others were in     has not installed it yet.                            next to electrical                           was not replaced   employees        locked in
               locked rooms.                                                           switches. One broken                         as required.       because it       the Hazmat
                                                                                       eyewash unit and one                                            was blocked      room. No
                                                                                       eyewash unit with                                               by clutter and   eyewash
                                                                                       obstructed access.                                              boxes.           unit near ink
                                                                                                                                                                        refill area.
Electrical     An electrical      Electrical panel blocked,     Extension cords,       Extension cords,           Extension cord,   Broken light
               panel was          unprotected electrical        electrical panel not   exposed electrical         covers left off   switch, missing
               blocked by mail.   conduit, electrical panel     covered, electrical    wires.                     electrical        outlet cover,
                                  left open.                    panel not properly                                boxes.            extension cords,
                                                                labeled, blocked                                                    exposed wiring.
                                                                electrical panel.
Unanchored                        Cabinets and lockers not      Several lockers not                                                 Lockers not
Lockers                           anchored.                     anchored with items                                                 anchored.
                                                                placed on top.
Fire           Two blocked fire   Blocked fire extinguisher          Blocked fire                                                   Two blocked fire
Prevention      extinguishers.         and alarm. Fire              extinguisher.                                                    extinguishers.
                                  extinguisher not tagged.




                                                                                         20
U.S. Postal Service’s Health and Safety Program                  HR-AR-12-001



                             Appendix C: Management’s Comments




                                                  21
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  22
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  23
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  24
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  25
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  26
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  27
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  28
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  29
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  30
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  31
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  32
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  33
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  34
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  35
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  36
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  37
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  38
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  39
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  40
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  41
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  42
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  43
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  44
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  45
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  46
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  47
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  48
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  49
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  50
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  51
U.S. Postal Service’s Health and Safety Program        HR-AR-12-001




                                                  52
